   November 1, 2006




Acquisition
Acceptance and Surveillance of F-16
Mission Training Center Simulation
Services
(D-2007-008)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFB                   Air Force Base
DCMA                  Defense Contract Management Agency
MTC                   Mission Training Center
OIG                   Office of the Inspector General
ODIG-AUD              Office of the Deputy Inspector General for Auditing
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                     November 1,2006
MEMORANDUM FOR COMMANDER, OPERATIONS AND TRAINING BRANCH,
                  HEADQUARTERS UNITED STATES AIR FORCE
               COMMANDER, AIR COMBAT COMMAND
               DIRECTOR, SIMULATOR SYSTEMS GROUP,
                  AERONAUTICAL SYSTEMS CENTER
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                  AGENCY

SUBJECT: Report on the Acceptance and Surveillance of F-16 Mission Training Center
         Simulation Services (Report No. D-2007-008)

      We are providing this report for information and use. We considered
management comments on a draft of this report when preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Komides at (614) 75 1- 1400 x2 11 or Amy J. Frontz at (303) 676-7392. See
Appendix E for the report distribution. The team members are listed inside the back
cover.
                              By direction of the Deputy Inspector General for Auditing:



                                        Paul Mranetto. CPA
                               Assistant Inspector General and Director
                                 Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2007-008                                                  November 1, 2006
   (Project No. D2005-D000FJ-0171.001)

                 Acceptance and Surveillance of F-16 Mission
                    Training Center Simulation Services

                                  Executive Summary
Who Should Read This Report and Why? DoD personnel responsible for managing,
executing, and overseeing contracts for services, including aircraft simulations, should
read this report. It discusses the need for better acceptance testing and contract
surveillance for an Air Force F-16 aircraft simulation training services contract.

Background. In June 1999, the Air Force awarded a contract to Lockheed Martin
Integrated Systems to acquire F-16 aircraft simulation services. The Air Force planned to
use the simulation services, which include cockpit simulators, to provide mission training
to its F-16 pilots. The Contractor was required to develop, deliver, and maintain Mission
Training Centers that provided simulation services in accordance with Government
approved performance specifications that included simulating advanced F-16 missions.

Results. The Air Force accepted substandard Contractor performance and paid
$145 million for simulation services that did not meet critical contract specifications.
The Mission Training Centers did not simulate 14 of the 16 missions specified in the
contract and there were deficiencies in the services the Air Force accepted. Additionally,
the limited service was impaired by repeated computer system failures. As a result, the
Air Force did not achieve the enhanced training capability it anticipated and pilots were
continuing to use the F-16 aircraft to perform required mission training at a cost of more
than $5,400 an hour. The Air Force needs to analyze the existing capabilities of each
F-16 Mission Training Center site against contracted requirements and reduce service
payments through the end of the contract in June 2007 for any requirements not provided.

The Air Force is in the process of developing a new contract for future F-16 simulation
services and it plans to spend $582 million to obtain services under the new contract as
early as 2007. The Air Force needs to be certain that problems experienced in the 1999
contract for F-16 simulation services are avoided in the future by performing better
acceptance testing and contract surveillance. The Director, Simulator Systems Group,
Aeronautical Systems Center, needs to coordinate with Air Combat Command and
Defense Contract Management Agency personnel to require contractors to demonstrate
that simulation services meet all statement of work requirements prior to service
acceptance, formalize the test discrepancy reporting and resolution process for simulation
service contracts, and require quality assurance surveillance plans to be developed in
conjunction with the statement of work for all simulation service contracts as required by
the Federal Acquisition Regulation. The Commander, Operations and Training Branch,
Headquarters United States Air Force needs to update Air Force instructions to identify
roles and responsibilities for the management and administration of simulation service
contracts and mandate training for quality assurance personnel performing oversight of
simulation service contracts.
Air Force Comments. The Assistant Secretary of the Air Force (Acquisition) took
exception to details within the findings of the report. We did not make changes to the
draft report as a result of the Assistant Secretary’s comments. However, we provided a
detailed audit response to the Assistant Secretary’s comments in Appendix D of this
report. The Assistant Secretary concurred with the recommendations. The Assistant
Secretary stated the Air Force will work with the Defense Contract Management Agency
to monitor the contractor’s performance and reduce service payments if services do not
meet contractual requirements. The Assistant Secretary stated no additional services are
planned for the current F-16 Mission Training Center simulation service contract and the
Air Force will ensure all contractual requirements are met prior to accepting future
simulation services. The Assistant Secretary stated the Air Force will formalize the
discrepancy reporting and resolution process in future simulation service contracts. The
process will include the date each discrepancy is identified, tested, and resolved. The
Assistant Secretary stated that the Defense Contract Management Agency is currently
drafting a quality assurance surveillance plan for Mountain Home Air Force Base and the
Air Force is working closely with the Defense Contract Management Agency to develop
quality assurance surveillance plans for future simulation services. The Assistant
Secretary of the Air Force (Acquisition) comments were fully responsive with respect to
the recommendations. Therefore, no further comments are required. See the Finding
Section of the report for a discussion of management comments and the Management
Comments section of the report for a complete text of the Secretary’s comments.

The Director, Current Operations and Training, Headquarters United States Air Force,
concurred with the finding and recommendations. The Director is revising Air Force
Instruction 36-2251 “Management of Air Force Training Systems” to more clearly define
roles and responsibilities of personnel who manage and administer simulation service
contracts. The Director stated that Headquarters Air Combat Command is doing the
same for Air Force Instruction 36-2248 “Operation and Management of Aircrew Training
Devices.” The Director stated the revisions of Air Force Instruction 36-2251 and Air
Force Instruction 36-2248 will also mandate training for Air Force personnel when a
Defense Contract Management Agency contracting officer delegates quality assurance
duties. The Director’s comments were fully responsive. Therefore, no further comments
are required. See the Finding Section of the report for a discussion of management
comments and the Management Comments section of the report for a complete text of the
Director’s comments.

Defense Contract Management Agency Comments. Although not required to
comment, the Deputy, Operations Group, Defense Contract Management Agency Dayton
provided comments on the finding. The Deputy stated that his office has identified for
improvement certain internal processes in areas of site reporting procedures, lines of
communication, and training. The Deputy also stated that his office is rewriting the
memorandum of agreement with the Air Force and has taken action to improve their level
of support for all simulator programs. For a full text of Defense Contract Management
Agency comments, see the Management Comments section of the report.




                                           ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objective                                                                   2

Finding
     Acceptance and Surveillance of F-16 MTC Simulation Services            3

Appendixes
     A.   Scope and Methodology                                             13
     B.   Prior Audit Coverage                                              14
     C.   Simulator Service Availability Accounting                         15
     D.   Air Force Management Comments on the Finding and Audit Response   20
     E    Report Distribution                                               26

Management Comments
     Assistant Secretary of the Air Force (Acquisition)                     29
     Defense Contract Management Command Dayton                             35
Background
          This is the second audit of an existing Air Force contract for F-16 Mission
          Training Center (MTC) simulation services. We performed the first audit 1 at the
          request of the Under Secretary of Defense for Acquisition, Technology, and
          Logistics and examined events directed by Ms. Darleen Druyun for compliance
          with Federal acquisition policy. This audit examined contracting issues that did
          not involve actions taken or directed by Ms. Druyun.

          The Air Force uses several Aircrew Training Devices to provide F-16 pilot
          training. Aircrew Training Devices complement training available in the aircraft
          and provide training that is prerequisite to in-flight performance. The training
          offered in the devices cannot be fully conducted in the aircraft because of safety,
          airspace, equipment, and security restrictions.

          Historically, F-16 pilots used low-fidelity simulators which are capable of
          providing stand alone training but not F-16 mission rehearsal training. The Unit
          Training Device is the most common training device but only provides marginal
          aircraft weapons training and is incapable of training important missions
          including suppression of enemy air defenses and deployment of high speed
          anti-radiation missiles.

          The F-16 MTC program was established to provide simulation service including
          cockpits that simulate the form, fit, and function of the F-16 aircraft with
          360 degree visual systems and high fidelity flight and weapon simulations. Each
          F-16 MTC can include up to four simulators (cockpits) and their associated
          instructor operator stations, threat stations, modular control equipment
          workstations, and a brief/debrief station.

          The F-16 MTC is intended to be part of a larger distributed mission training
          system that integrates E-3, F-15, and F-16 weapons system simulators to perform
          mission training. Additionally, the F-16 MTC includes the capability to train in
          theatre-specific environments and combat situations, thus overcoming constraints
          that now limit war preparation.

          The program is managed by the procuring contracting office, Aeronautical
          Systems Center Headquarters Simulator Systems Group (formerly the Training
          Systems Product Group) located at Wright-Patterson Air Force Base (AFB),
          Ohio. Air Force Major Command personnel manage the overall F-16 pilot
          training requirements and system training plan. Air Force project officers and
          quality assurance representatives provide daily oversight of the F-16 MTC
          operations and are responsible for monitoring Contractor performance.

          In June 1999, the Air Force awarded a contract with a ceiling price of
          $359 million to Lockheed Martin Integrated Systems (the Contractor) for F-16
          MTC simulation services using commercial item acquisition procedures. The
          Contractor agreed to develop and deliver F-16 MTCs that provide simulation

1
    DoD Inspector General Report No. D-2006-065, “Procurement Procedures Used for the F-16 Mission
    Training Center Simulator Services,” March 24, 2006.



                                                   1
    services in accordance with Government-approved performance specifications,
    and to keep the F-16 MTC consistent, or concurrent, with the F-16 aircraft. The
    contract called for a limited single-cockpit simulation service (level B) and
    required an upgrade on the single cockpits to full multi-ship simulation services
    (level C).

    The Air Force pays the Contractor for F-16 MTC simulation services based on an
    hourly service rate and pays 100 percent of the billed hours each month if the
    Contractor maintains at least 95-percent operating availability. The contract
    includes a complex formula for calculating service availability and establishes a
    point system based on the availability of the various elements of the F-16 MTC
    (See Appendix C for details).

    At the time of the audit, the Contractor was providing full (level C) simulation
    service on 14 cockpits located at Shaw AFB, South Carolina; Mountain
    Home AFB, Idaho; Spangdahlem Air Base, Germany; and Misawa Air Base,
    Japan. The Air Force paid the Contractor $145 million for F-16 MTC services
    through April 2006 and the existing contract is scheduled to expire in June 2007.

    The Air Force is in the process of re-competing the requirement for F-16 MTC
    simulation services at an estimated value of $582 million and expects to award a
    contract in FY 2006.


Objective
    The audit objective was to determine whether the management and oversight of
    the F-16 MTC simulation service contract ensured that services provided met
    contract requirements. See Appendix A for a discussion of the scope and
    methodology and Appendix B for prior audit coverage.




                                         2
           Acceptance and Surveillance of F-16
           MTC Simulation Services
           The Air Force paid $145 million for substandard contractor performance
           including simulation services that did not meet critical contract
           specifications. The Mission Training Centers did not simulate 14 of the
           16 missions specified in the contract and there were deficiencies in the
           services the Air Force accepted. In addition, the limited training service
           provided was further impaired by repeated computer system failures.
           These conditions existed because the Air Force did not ensure that:

                   •   all required testing was successfully completed prior to service
                       acceptance, and that discrepancies identified during testing
                       were promptly resolved;
                   •   roles and responsibilities for contract surveillance were
                       properly defined, and that personnel monitoring contract
                       performance were adequately trained; and

                   •   a standardized quality assurance surveillance plan was in place
                       to appropriately penalize the contractor for limitations with
                       service availability.

           As a result, the Air Force did not achieve the enhanced training capability
           it anticipated and pilots were continuing to use the F-16 aircraft to perform
           required mission training at a cost of more than $5,400 an hour.


F-16 MTC Contract Requirements
    Air Force contracting personnel clearly outlined the specifications for F-16 MTC
    simulation services in the statement of work, performance specifications list, and
    training task list that were a part of the contract awarded to Lockheed Martin
    Integrated Systems in 1999. The Air Force required that the MTCs be capable of
    training all procedures specified in the training task list. Specifically, the training
    task list identified more than 900 pilot training tasks, which comprised
    16 required aircraft missions.

    Prior to delivery and start of service, the contractor was required to demonstrate
    that the F-16 MTC provided full mission training capability and functioned in
    accordance with contract requirements. The Air Force specified that tests were to
    be conducted at the Contractor’s facility and essential test discrepancies
    (problems that prevent the simulator from performing specific functions essential
    for mission training) identified during the process were to be documented and
    resolved. The contract required the F-16 MTC device to remain in plant until
    essential test discrepancies were resolved by a team consisting of a test director,
    subject matter experts, and Government representatives.




                                           3
Testing of F-16 MTC Simulation Services
    The Air Force did not ensure that all required testing was successfully completed
    prior to acceptance of F-16 MTC services. The Contractor delivered and started
    multi-ship (level C) simulation service at Shaw AFB in January 2003 even though
    the F-16 MTC had not successfully completed in-plant testing. In addition,
    numerous essential discrepancies existed that prevented adequate mission training
    and the process for reporting and resolving discrepancies was never formalized.

    In-Plant Testing Results. The Air Force performed an assessment of the F-16
    multi-ship service at the Contractor’s Akron, Ohio, facility from August 19 to
    September 6, 2002. The assessment identified 209 discrepancies, of which 161
    were considered essential discrepancies that had to be corrected prior to
    successful completion of the assessment. The Air Force team stopped the
    assessment testing prior to completion of all of the tests because of system
    stability problems. During the second week of testing, less than 25 percent of
    missions were considered fully successful. Therefore, not all missions and
    mission elements were able to be assessed. The test team decided to wait until all
    essential discrepancies were corrected to complete the assessment.

    On October 7, 2002, the Contractor held a ready-to-ship assessment meeting with
    Air Force test officials. The Contractor indicated there were 415 outstanding
    discrepancies, which included the 209 identified during the Air Force assessment.
    The Air Force test director stated that a mutual decision was reached in the
    meeting to hold off shipping the F-16 MTC until essential discrepancies were
    completed and a follow-up training assessment could be completed. However,
    the Contractor shipped the F-16 MTC to Shaw AFB in January 2003 without
    correcting essential discrepancies and successfully completing the required
    assessment. Because the training assessment was not completed and not all
    missions and related elements were tested, the Air Force had no assurance that all
    essential discrepancies were identified.

    Post-Delivery Testing Results. The Air Force test team performed additional
    testing at Shaw AFB in January 2003. The team identified 112 discrepancies that
    had been previously identified by Contractor and Air Force test personnel but
    were never corrected. In addition, the team identified 49 new discrepancies.

    The Air Force test team again returned to Shaw AFB in July 2003 to determine if
    previously identified discrepancies had been corrected but experienced a large
    number of computer system failures. The team reported that proper resolution of
    previously identified discrepancies could not be adequately tested until system
    stability was established. Through limited testing, the team noted that previously
    identified discrepancies had not been corrected. The Air Force test team
    identified the test discrepancy reporting process as a problem area and
    recommended that the process for resolving test discrepancies be formalized. At
    the time of the audit, Air Force officials still had not formalized the discrepancy
    reporting process nor resolved the process for closure and resolution of test
    discrepancies.




                                         4
Contract Surveillance Roles, Responsibilities, and Training
           Roles and responsibilities for surveillance of the contract for F-16 MTC
           simulation services were not properly defined and personnel monitoring contract
           performance were not adequately trained.

           Contract Management and Execution. Air Force Instruction 36-2248,
           “Operation and Management of Aircrew Training Devices,” May 1, 1998,
           specifies Air Combat Command as the combat air forces 2 representative for
           managing and providing policy and guidance for training systems common to the
           combat air forces. The Air Combat Command Training Support Squadron is
           identified as the office of primary responsibility for fielded training devices but
           the Training Support Squadron did not have a role in the management and
           execution of the contract for F-16 MTC simulation services. This role was
           assumed by the Aeronautical Systems Center, Simulator Systems Group.

           A memorandum of agreement for the planning and testing of the F-16 MTC
           contract was signed in April 2001, almost 2 years after contract award. The
           memorandum established the responsibilities for Aeronautical System Center, Air
           Combat Command, the 29th Training Support Squadron, and the 346th Training
           Squadron. The memorandum specifically identified the combat air forces
           responsibilities and relationships as those identified in Air Force
           Instruction 36-2248. However, the cited instruction did not address the
           acquisition of commercial simulation services, such as those provided by the F-16
           MTC contract.

           Contract Administrative Services. The Defense Contract Management Agency
           (DCMA) is the DoD Component that works directly with Defense suppliers to
           help ensure that supplies and services are delivered on time, at projected costs,
           and meet all performance requirements. A memorandum of agreement between
           the Air Force Simulator Systems Group and DCMA was signed in August 1998 to
           establish the DCMA Dayton, Ohio, office as the single DCMA office responsible
           for contract administrative services for all Simulator Systems Group contracts. In
           contrast to the agreement, the Simulator Systems Group retained the authority for
           reviewing and approving the Contractor’s monthly invoices for F-16 MTC
           simulation services. This resulted in confusion as to the specific roles and
           responsibilities. For example, one F-16 MTC project officer was sending reports
           on poor contractor performance to DCMA instead of Simulator Systems Group
           officials responsible for monitoring payments at the time.

           Training of Surveillance Personnel. Air Force F-16 MTC quality surveillance
           personnel did not receive adequate training to perform the required quality
           assurance functions. During site visits to Shaw AFB, Mountain Home AFB, and
           Spangdahlem Air Base, Air Force F-16 MTC quality surveillance personnel
           stated that they had never received formal training on quality assurance for
           training devices or related simulation services. Air Force Instruction 36-2248

2
    The Combat Air Forces are comprised of the following Air Force Major Commands: Air Combat
    Command, United States Air Forces Europe, Pacific Air Forces, Air National Guard, Air Force Reserve
    Command, and Air Education and Training Command.



                                                     5
     provides specific information on an annual command-directed training device
     quality assurance workshop that includes training sessions on career development,
     quality assurance policy, and contract administration. The instruction specifies
     that representation should include all project officers and quality assurance
     representatives responsible for aircrew training devices. Air Force F-16 MTC
     quality surveillance personnel at the sites we visited informed us that they had not
     been able to attend the quality assurance workshop or obtain comparable training
     because their units did not provide the necessary funding.


Quality Assurance Surveillance
     A standardized quality assurance surveillance plan was not prepared and
     implemented to appropriately penalize the contractor for limitations with service
     availability. Because a quality assurance surveillance plan was not prepared, pilot
     feedback forms used to grade simulation services were not standardized or
     consistently completed, and the methodology used to determine the availability of
     the service was not consistently applied and validated.

     In order to ensure the Government receives the goods and services it has
     purchased, a mechanism must be in place to validate that the goods and services
     delivered meet the requirements of those purchased. This mechanism is known as
     a quality assurance surveillance plan. Federal Acquisition Regulation part 46
     “Quality Assurance” subpart 46.4, “Government Contract Quality Assurance,”
     states that a quality assurance surveillance plan should be prepared in conjunction
     with the preparation of the contract statement of work and should specify all work
     requiring surveillance and the method of surveillance.

     Completion of Pilot Feedback Forms. Air Force MTC quality surveillance
     personnel used pilot feedback forms to monitor Contractor performance. If a pilot
     feedback form identified a deficiency with the simulation service or identified the
     training session as non-effective, the Contractor should have been appropriately
     penalized. The pilot feedback forms were originally developed by the Contractor
     and have been modified several times by Air Force personnel. Each F-16 MTC
     location was using a different version of the pilot feedback form.

     Pilot feedback forms were not always completed and returned to the Air Force
     MTC quality surveillance personnel. For example, at Shaw AFB during a
     6-month period beginning in May 2005, there were more than 40 instances where
     pilots did not complete and return feedback forms. In addition, pilot feedback
     forms were not returned to Spangdahlem Air Base MTC quality surveillance
     personnel for 11 out of 19 days of simulator operation during November 2005.
     Air Force MTC quality surveillance personnel cannot adequately measure
     Contractor performance without the pilot feedback forms.

     Surveillance of Simulator Service Availability. The Air Force did not
     consistently apply and validate the methodology used to determine service
     availability at Shaw AFB, Mountain Home AFB, and Spangdahlem Air Base.
     Because this was a commercial services contract, we expected that the Air Force
     would simply pay for actual time spent in the MTC based on an established


                                          6
hourly rate. However, the contract for F-16 simulation services included a
complex formula for calculating service availability and established a point
system based on the availability of the various elements of the F-16 MTC. To
illustrate its complexity, details on the service availability formula from the
contract are provided in Appendix C. As discussed below, the formula was not
consistently applied and validated.

         Surveillance Activities at Shaw AFB. The project officer for the F-16
MTC located at Shaw AFB developed his own quality assurance surveillance plan
because one did not exist when he arrived in June 2003, which was a year after
limited simulation service (level B) began in May 2002. Pilot feedback forms
were reviewed and service availability was calculated as part of the daily
surveillance activities. In addition, quality surveillance personnel accumulated a
wide array of information on the F-16 MTC utilization including mission late
starts, cockpit utilization, training time loss and non-effective mission rates. The
information was reported to Aeronautical Systems Center and Major Command
officials responsible for the management of the F-16 MTC simulation service
contract but was not used to hold the Contractor accountable for performance.

       In an attempt to hold the Contractor to the performance specifications of
the contract, Shaw AFB MTC personnel changed their methodology for
scheduling simulation service and calculating service availability. In doing so,
Shaw AFB personnel were able to demonstrate several months where the
simulator service did not meet the 95-percent availability threshold required by
the contract. However, Contractor personnel continued to submit monthly
availability percentages that were higher than those calculated by Shaw AFB
personnel. During the period of June 2003 through October 2005 there were
seven instances where the Shaw AFB project officer calculated availability for
simulation service below 95 percent. However, on five of the seven occasions
payments were based on the higher availability rates calculated by the Contractor.

        For example, in December 2003, the Contractor calculated a 91-percent
availability rate for F-16 MTC simulation services at Shaw AFB. The Shaw AFB
project officer calculated a 79-percent availability rate for those same services. The
contract identifies the project officer as the final authority for determining
availability, yet the Contractor was paid based on the 91-percent availability it
calculated. Furthermore, the availability formula in the contract allowed for the
Contractor to be paid at an even higher rate. When service availability falls
below 95 percent, the Air Force pays the invoice based on a calculated percentage
equal to the actual availability percentage divided by 95 percent. For this
example, the Air Force paid 96 percent of the amount the Contractor invoiced for
service. Therefore, even though the Air Force calculated availability at
79 percent of the required service, the Contractor was paid for 96 percent of the
amount billed.

        Surveillance Activities at Mountain Home AFB. Surveillance activities
at Mountain Home AFB differed greatly from those performed at other MTC sites
and did not provide effective Contractor oversight. The project officer at the F-16
MTC located at Mountain Home AFB was not using a quality assurance
surveillance plan when we visited the site in November 2005.



                                      7
             At Mountain Home AFB minimal quality assurance surveillance was
     performed. The project officer in place during our November 2005 site visit was
     the sixth project officer since initial F-16 simulation service began in
     October 2002. The project officer reviewed the Contractor’s availability
     percentage report and compared it to the pilot feedback forms to determine
     mission reporting accuracy. However, there were instances where pilots
     identified missions as non-effective for training but the Contractor reported them
     as effective. For example, simulator missions flown on four separate occasions in
     November 2004 were identified as non-effective training by the pilots for various
     reasons. In contrast, the Contractor reported the same missions as effective.
     Furthermore, from June through August 2005, no surveillance activities were
     performed because the project officer was deployed. A new quality assurance
     representative was appointed during the project officer’s deployment but was not
     aware of what surveillance activities were required.

              Surveillance Activities at Spangdahlem Air Base. Surveillance
     activities at Spangdahlem Air Base differed from those performed at other MTC
     sites and did not provide effective Contractor oversight. The project officer at the
     F-16 MTC located at Spangdahlem Air Base had a copy of the quality assurance
     surveillance plan developed at Shaw AFB, but was not using it during our site
     visit in February 2006.

             At Spangdahlem Air Base the quality assurance surveillance performed by
     the quality assurance representative consisted of a tally of effective and non-
     effective missions flown in the simulator reported to the wing commander. The
     quality assurance representative did not use this information to determine the
     accuracy of the Contractor-reported availability. For example, pilots reported a
     two-ship simulator mission flown on October 18, 2005, as non-effective training.
     The quality assurance representative also reported the mission as non-effective in
     his summary. In contrast, the Contractor reported all missions on October 18th,
     2005, as effective.

             Although the quality assurance representative reported effective and non-
     effective mission data to the wing commander, the representative did not
     consistently report this information to F-16 MTC contract management officials.
     While this information may be useful for the wing, officials responsible for F-16
     MTC contract management could use the information to hold the contractor
     accountable for failing to meet the specifications of the contract.


Certification of F-16 MTC Simulation Capabilities
     The contract for F-16 MTC simulation services required the services to be
     integrated into the F-16 ready aircrew program and the respective training
     syllabus. However, the official certification performed by Air Force experts did
     not recommend that any of the mission events specified in the contract statement
     of work be certified for ready aircrew program accreditation.

     Air Force Instruction 11-2F-16, Volume 1, “F-16 Aircrew Training,”
     May 1, 1998, establishes the minimum Air Force F-16 pilot training qualification


                                          8
     standards. The F-16 pilot training program is designed to progress pilots from
     initial qualification training to mission qualification training and, finally, to
     continuation training. Continuation training involves the basic flying skills to
     ensure safe operation of the aircraft (non-ready aircrew program training) and
     specific mission-related training required to accomplish the unit’s assigned
     mission (ready aircrew program training).

     Air Force Instruction 36-2248 provides guidance for certification of aircrew and
     mission simulators. The Air Combat Command Training Support Squadron
     establishes simulator certification policy and guidance and the 29th Training
     Support Squadron implements Air Combat Command policy and manages the
     certification program. New training devices require initial certification after the
     device is installed and the Air Force has completed acceptance testing. The
     certification process is designed to ensure that training devices are maintained to
     their design configuration and provide accurate and credible aircrew training in
     accordance with Air Force instructions.

     The first official simulator certification report on the F-16 MTC was issued in
     January 2005, approximately 2 years after delivery of full (level C) simulation
     service. The report summarized the results of the initial certification that was
     conducted in October 2004 at Shaw AFB. The certification report stated that the
     F-16 MTC provided satisfactory support for normal and emergency procedures,
     instrument tasks, element coordination and air-to-ground procedural training.

     The report stated that the F-16 MTC was not being maintained to design
     configuration and performance of the F-16 aircraft, which significantly restricted
     training effectiveness for mission qualification training and continuation training.
     Additionally, upgrade and continuation training were degraded by errors in the
     visual environment, and mission rehearsal training was not possible because of
     the lack of Distributed Mission Training capability. Observed mission reliability
     of 72 percent and simulator certification questionnaire comments revealed a
     continuing concern about mission training lost because of system failures and
     reboots. The report did not recommend any of the mission events specified in the
     contract for F-16 MTC simulation services to be certified for ready aircrew
     program accreditation.


Effects on Mission Training
     The F-16 MTCs were not capable of providing mission training in accordance
     with the Air Force ready aircrew program requirements. Pilots were only
     obtaining limited training for non-ready aircrew program requirements, which
     could be obtained in existing training devices. As a result, the Air Force has not
     realized the enhanced training capability it anticipated and Air Force pilots must
     continue using the F-16 aircraft to perform required mission training at a cost of
     more than $5,400 an hour.

     Each Air Force Major Command is responsible for developing training
     requirements based on its specific mission. Headquarters Air Combat Command
     periodically issues tasking messages that provide guidance on which ready and


                                           9
   non-ready aircrew program events can be accomplished in aircrew training
   devices. In its December 2005 tasking message, Headquarters Air Combat
   Command indicated that only two non-ready aircrew program mission events
   required by the contract (emergency procedures and tactics) could be trained in
   the F-16 MTC. These requirements could also be trained in older aircrew training
   devices such as the Unit Training Device. None of the 14 specific missions
   required by the contract (See Table 1) were listed as trainable in the F-16 MTC.

            Table 1. Contracted Missions Not Trainable in the MTC
          1. Killer Scout
          2. Air Interdiction
          3. Close Air Support
          4. Nuclear Operations
          5. Defense Counter Air
          6. Offensive Counter Air
          7. Basic Fighter Maneuvers
          8. Air Combat Maneuvering
          9. Combat Search and Rescue
          10. Medium Altitude Operations
          11. Weather Approach Procedures
          12. Night Vision Goggle Operations
          13. Suppression of Enemy Air Defenses
          14. Low Altitude Navigation and Targeting Infrared for Night


Summary
   The Air Force did not properly and effectively manage the F-16 MTC simulation
   service contract and has continued to pay for simulation service that never met the
   specified training requirements. Authorities did not make the Contractor correct
   essential test discrepancies and system stability problems and demonstrate that the
   MTC could perform mission training prior to shipment. In addition, roles and
   responsibilities for contract surveillance were not properly defined and personnel
   monitoring contract performance were not adequately trained. Furthermore, the
   inconsistent surveillance of daily MTC operations did not appropriately penalize
   the Contractor for limitations with simulation services. The Air Force penalized
   the Contractor by reducing the service payments by $561,000 at three MTC sites,
   which represented less that one percent of the $145 million total payments. We
   believe the penalties have been insignificant and did not suit the serious
   non-conformance issues that the Air Force experienced.




                                       10
Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are in
    Appendix D.


Recommendations and Management Comments
    1. We recommend that the Director, Simulator Systems Group,
    Aeronautical Systems Center, coordinate with Air Combat Command and
    Defense Contract Management Agency personnel to:

          a. Analyze the existing capabilities of each F-16 Mission Training
    Center site against contracted requirements and reduce service payments
    through the end of the contract in June 2007 for any requirements not
    provided.
    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding and recommendation. The Air Force agreed to reduce
    service payments to the contractor if the F-16 Mission Training Center simulation
    services do not meet contractual requirements. The Air Force, in association with
    the Defense Contract Management Agency, will monitor the contractor’s
    performance to ensure the Air Force is receiving all contractually required
    services.

            b. Require contractors to demonstrate that simulation services meet
    all statement of work requirements prior to accepting the service.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding and recommendation. The Air Force stated that
    additional services are not planned for the current F-16 Mission Training Center
    simulation service contract. However, for future simulation service contracts, the
    Air Force will ensure all contractual requirements are met prior to accepting
    service.
            c. Formalize the test discrepancy reporting and resolution process for
    simulation service contracts. The process should include a description of
    each discrepancy (problem that prevents the simulator from performing
    specific functions essential for mission training) and the date each
    discrepancy is identified, tested, and resolved.

    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding and recommendation. The Air Force stated the request
    for proposal for the follow-on F-16 Mission Training Center simulation service
    contract identifies detailed requirements, including those recommended above, for
    a formalized deficiency reporting system.




                                        11
        d. Develop quality assurance surveillance plans in conjunction with
the statement of work for all simulation service contracts as required by
Federal Acquisition Regulation.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred with the finding and recommendation. The Air Force stated that the
Defense Contract Management Agency is currently drafting a quality assurance
surveillance plan for the F-16 Mission Training Center site at Mountain Home Air
Force Base. The Air Force is working closely with the Defense Contract
Management Agency to develop, in accordance with the Federal Acquisition
Regulations, quality assurance surveillance plans for the follow-on F-16 Mission
Training Center simulation service contract.

2. We recommend that the Commander, Operations and Training Branch,
Headquarters United States Air Force update Air Force instructions to:

      a. Identify roles and responsibilities for the management and
administration of simulation service contracts.

Air Force Comments. The Director, Current Operations and Training,
Headquarters United States Air Force, concurred with the finding and
recommendation. The Director is revising Air Force Instruction 36-2251
“Management of Air Force Training Systems” to more clearly define the roles
and responsibilities of personnel who manage and administer simulation service
contracts throughout all major commands. Headquarters Air Combat Command
is doing the same for the combat air forces in Air Force Instruction 36-2248
“Operation and Management of Aircrew Training Devices.” The planned
completion for these revisions is December 31, 2006.

       b. Mandate training for quality assurance personnel performing
oversight of simulation service contracts.

Air Force Comments. The Director, Current Operations and Training,
Headquarters United States Air Force, concurred with the finding and
recommendation. The revisions to Air Force Instruction 36-2251 and Air Force
Instruction 36-2248 will mandate training for Air Force personnel when a
Defense Contract Management Agency contracting officer delegates quality
assurance duties.

Defense Contract Management Agency Comments. Although not required to
comment, the Deputy, Operations Group, Defense Contract Management Agency
Dayton provided the following comments on the finding. The Deputy stated that
Defense Contract Management Agency Dayton has identified for improvement
certain internal processes in areas of site reporting procedures, lines of
communication, and training. The Deputy stated that his office is currently
rewriting the memorandum of agreement with the Air Force and has taken action
to improve their level of support for all simulator programs. For a full text of the
Defense Contract Management Agency Dayton comments, see the Management
Comments section of the report.




                                     12
Appendix A. Scope and Methodology
   This audit was performed as a result of conditions that came to our attention
   during our audit of “Procurement Procedures Used for F-16 Mission Training
   Center Simulator Services” (Report No. D-2006-065). The original audit was
   performed at the request of the acting Under Secretary of Defense for Acquisition,
   Technology, and Logistics. An internal study was commissioned in
   November 2004 in response to admissions by the Principal Deputy Assistant
   Secretary of the Air Force (Acquisition and Management) from 1993 to 2002 that
   indicated the Principal Deputy may have allowed personal interests to affect her
   judgment on acquisition decisions. During our prior review we identified a
   number of issues with the Air Force management and oversight of the contract for
   F-16 MTC services. For this audit, we determined whether the management and
   oversight ensured that services provided met contract specifications.

   We reviewed the Federal Acquisition Regulation, Air Force Instructions, and the
   F-16 MTC simulator service request for proposal, statement of work, performance
   specifications, and contract clauses. We reviewed F-16 MTC simulation service
   pilot feedback data from three of the four F-16 MTC facilities.

   We interviewed Headquarters Air Combat Command personnel, including the
   Chief and Deputy Chief of the Flight Operations and Training Division, Air and
   Space Operations Directorate, and personnel from the Distributed Mission
   Operations Branch, Directorate of Requirements. We also interviewed personnel
   from the Air Combat Command Training Support Squadron, and the 29th
   Training Support Squadron of the Air Force Warfare Center 53rd Wing 53rd Test
   Management Group. We interviewed Aeronautical System Center personnel
   including the Chief of Contract Management, Contracting Officer, Program
   Manager, and General Counsel. We interviewed the project officers and quality
   assurance representatives at three of the four F-16 MTC locations. We also
   interviewed personnel from DCMA.

   We performed this audit at Headquarters Air Combat Command, the Air Combat
   Command Training Support Squadron, the 29th Training Support Squadron at
   Eglin AFB, Florida, Headquarters Aeronautical System Center, DCMA Dayton,
   the 20th Fighter Wing at Shaw AFB, the 52nd Fighter Wing at Spangdahlem Air
   Base, and the 366th Fighter Wing at Mountain Home AFB. We performed this
   audit from November 2005 through August 2006 in accordance with generally
   accepted government auditing standards. The scope of the audit was limited in
   that we did not visit or interview personnel from the Misawa Air Base, 35th
   Fighter Wing F-16 MTC location. In addition, the scope of the audit was limited
   in that we did not review the managers’ internal control program because it was
   not an announced objective of the audit.
   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the “DoD Contract Management” high-risk area.


                                       13
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO), the
      Department of Defense Inspector General (DoD IG), and the Air Force Audit
      Agency have issued four reports discussing the F-16 MTC, and three reports
      discussing surveillance of service contracts. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports. Air Force Audit Agency
      reports can be accessed over the Internet at http://www.afaa.hq.af.mil.

GAO
      GAO Report No. GAO-05-274, “Opportunities to Improve Surveillance on
      Department of Defense Service Contracts,” March 17, 2005

DoD IG
      DoD IG Report No. D-2006-065, “Procurement Procedures Used for F-16
      Mission Training Center Simulator Services,” March 24, 2006

      DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
      October 28, 2005

Air Force
      Air Force Audit Agency Report No. F2006-0018-FDE000 “Distributed Mission
      Operations, 52d Fighter Wing, Spangdahlem AB, Germany,” 25 January 2006

      Air Force Audit Agency Report No. F2005-0039-FBN000 “F-16 Simulators,
      366th Fighter Wing, Mountain Home AFB ID,” 2 May 2005

      Air Force Audit Agency Report No. F2004-0051-FDM000 “Flight Simulator
      Utilization, 20th Fighter Wing, Shaw AFB SC,” 5 May 2004

      Air Force Audit Agency Report No. F2002-0044-WN0000 “Service Contracting
      Quality Assurance Evaluation Program, Air Research Laboratory, Kirtland AFB
      NM,” 27 August 2002




                                        14
Appendix C. Simulator Service Availability
            Accounting

Contract Clause A-016. Service Availability Accounting
     A. Level A Availability Accounting

     1. The Level A system is segregated into the following elements:

             ACC F-16 Level A Elements
                  Cockpit with IOS
                  Visual
                  Combat environment

     2. The cockpit with IOS and either the Visual or the Combat environment must be
     available for Availability to be non-zero.

     a. All three elements being available are scored as 100% availability.

     b. The cockpit plus either of the other two elements is scored as 66% availability.
     An element is non-available from the time that the Government first reports the
     outage. Failure of the contractor’s problem reporting system does not constitute a
     failure to notify. An element becomes available again upon successful
     completion of repair.

     c. Monthly availability is calculated according to the following formula:

                                     # hours at 100% * 100 + # hours at 66% *
     Lvl A Availability (%) = (----------------------------------------------------------------)
                                           Total number of hours in month

     d. The total number of hours in a month are number of days in a month * 24 hours
     a day. For example, January has 31 days, so it has 31 * 24 = 744 hours.

     B. Level B and Level C Availability Accounting

     1. The F-16 Block 40/50 system is segregated into the following system elements:

     ACC F-16 MTC                     Elements                  Points
     Brief/DB System                  2 room                    2 (1 each)
     IOS                              4 stations                4 (1 each)
     Pilot Stations*                  4 cockpits                4 (1 each)
     Manned Threats                   4 stations                4 (1 each)
     Mission Control Equip            1 station                 1
     Local Network                    1 network                 1
     Long Haul Connect                1 system                  5
     Observation Area                 1 room                    1
     Total Elements Available                                   22


                                             15
*Pilot stations include the synthetic environment to support the scheduled
mission.

NOTE: These segments may be adjusted based on contractor selected design of
the system. For example, if a separate threat environment exists to support each
cockpit, a threat environment element may be added and counted like 4 cockpits
or manned threats.

2. The MTC shall have 95% availability. Each of the above elements will
contribute the points indicated toward the monthly service availability
calculation:

                  Available Required Elements - Not Mission Capable Elements
Availability (%) = (-----------------------------------------------------------------------) * 100
                                              Required Elements

a) Required Elements. Required elements are identified on the final daily
schedule (normally 1600 the day prior) presented to the contractor. Schedule
changes coordinated after a final schedule is established will not be charged
against the contractor if the contractor is unable to support late request. However,
additional points can be achieved for a training mission by supporting late
schedule changes (see paragraph 2.d below and examples). If these elements on
the final daily schedule are classified Not Mission Capable Elements, these
elements will be excluded from the definition of required elements.

b) Available Required Elements. An element is considered available if the
element was used in the mission and provided or supported effective mission
training for the primary trainees or objectives. If the element is down, in a
degraded condition, or not able to be used to support the mission and/or objective
due to failure of another element, the element is considered not available. (Ex: If
the cockpit stations fail, it is very unlikely that any elements can be considered
available.) If team training is scheduled and the team is non-effective, all
elements scheduled by the team shall be considered non-effective. The crew or
instructor responsible for accomplishing the mission will determine mission
effectiveness. If long-haul connections are disrupted due to problems at remote
sites (e.g., power, phone lines) there will be no decrement to the mission points.

NOTE: The basis for the effective/non-effective decision will be patterned after
wing policy for accomplishing effective training flights in the aircraft. Crews will
attempt alternate missions in an attempt to get effective training; however, basic
qualification type missions, emergency procedure practice and/or instrument
missions will not normally substitute for team mission training unless a team
member specifically has that mission type as an identified training requirement.

c) Not Mission Capable Elements. An element is considered “Not Mission
Capable” (NMC) when it is down for a period exceeding one day. This NMC
category protects the government from the circumstance of being unable to
schedule a desired mission because the mission requires the use of an NMC
element, and the element is known to be NMC. For example, two instructor
stations are down for an extended period of time. If the user only schedules two
instructors due to this condition, the contractor would continue to get 100%


                                             16
availability without the NMC provision. Thus, any mission conducted during a
period that any element is NMC will loose element points for NMC elements.

d.) Any missions requested by the user and supported by the contractor after the
final daily schedule is presented to the contractor are credited to the required
elements available (numerator) of the availability formula and zero points are
added to the required elements (denominator). If late requested elements are only
partially effective or are not effective, the contractor is not penalized in any way;
however, no points for the mission will be included in the availability accounting
period.

3. The on-site Project Officer (PO) is the final authority for determining whether
the device meets the mission requirements. The MTC contractor and PO shall
meet as required, but not less than weekly, to resolve the accounting of
availability factors. The ANG POs will meet with the contractor no less than
monthly. Availability shall be calculated on a monthly basis but a review of the
factors will be accomplished weekly while the events are still current. In the
event of a disagreement between the Government and the contractor's accounting
of mission availability data, the decision of the PO shall stand with the
contractor's position documented at the point(s) of disagreement. Complete
details of events/problems that affect the training schedule including facility
conditions and any other factors affecting the availability of the device shall be
documented by the contractor, certified by PO and attached to the contractor’s
service billing invoice.

4. Each month the cumulative elements available for all missions (available
required elements minus NMC elements) will be divided by the cumulative
elements required for all missions to calculate the monthly availability
percentage. This monthly availability percentage will then be multiplied by the
hours available for that month for billing purposes. If no missions are scheduled
or flown in any given month, the availability rating will be 100% as long as the
contractor staffs the MTC.

5. Under no circumstances shall the availability percentage be more than 100% in
any month.

6. Availability will not be calculated until operational service starts.

7. Availability for a day that no elements are scheduled or used will be 100%;
however, zero points will be added to both elements of the formula, 0 scheduled,
0 used.

8. Availability for level A and B service will be a subset of the MTC elements
using the same scheduled versus effective formula.

The following examples are provided for clarification:

Example One:

Force Protection Mission Commander Upgrade Training: Long haul DMT with
4 x F-15C at Eglin, AWACS at Tinker, 4 x F-16C cockpits the F-16 site.


                                      17
Elements Required/Scheduled                          Points
1 Briefing system                                    1 point
2 IOS                                                2 points
4 Pilot Stations                                     4 points
4 Threat Stations                                    4 points
1 Mission Control Station                            1 point
Local network                                        1 point
Mission Observation                                  1 point
Debrief System                                       1 point
1 Long Haul Connect                                  5 points
1 debriefing system                                  1 point
Elements required/scheduled                          21 points

Case I: All required elements are logged effective by the crew, the availability
rating is 21/21 for the scheduled mission.

Case II: One pilot station in the second element lost the visual display system
10 minutes after the mission started. The second element “aborted” and had no
reasonable alternate mission. The second element instructor station was no longer
required. The primary mission was conducted with a 2-ship element and logged
as effective for the mission upgrade pilot because the syllabus allowed a 2-ship
lead for this specific mission. One IOS and two cockpits became non-effective,
therefore, 3 elements are non-effective for a score of 18/21.

Case III: The mission commander upgrade pilot station failed for loss of visual
display system 15 minutes after the mission started. The DMT wide mission was
not stopped and the F-15 flight lead at Eglin took over the force protection lead.
F-16 cockpits were swapped and the mission restarted 15 minutes later and
attempted as a two ship but timing, other minor delays and mission flow did not
allow the F-16 upgrade pilot to accomplish the required training; therefore, Non
Effective. No effective mission training was accomplished in the period. The
availability rating is 0/21.

Example Two:

One element (2-ship) is scheduled for a DMT SEAD mission and the second
element is flying local low level and range familiarization ride with two threat
stations for support. The local mission requested no MTC briefing

Elements                                             Points
1 Briefing system                                    1 point
2 IOS                                                2 points
4 Pilot Stations                                     4 points
4 Threat Stations (2 for each mission)               4 points
1 Local network                                      1 point
1 Long haul Network/Setup                            5 points
2 Debriefing systems                                 2 points
Elements required/scheduled                          20 points

Case I: All required elements are logged effective by the crew for Missions #1
and #2. The availability rating is 20/20 for the scheduled missions.


                                     18
Case II: The DMT mission was non-effective due to a failure in the MTC
Contractor's equipment inside the MPOP. One DMT mission pilot and the
instructor stayed and did a single ship emergency procedure mission to prepare
for an upcoming qualification requirement. The local mission went as scheduled.
Loss of one cockpit, two threat stations, and the long haul network (8 element
points) were deducted for an availability of 12/20. If the DMT mission failure is
determined to be out of the control of the MTC Contractor (ex: O&I connectivity
issues), the loss would not be counted.

Case III: The DMT mission goes as planned but the second element is a no-show.
Availability is 20/20.

Example Three:

No mission is scheduled for the period on the final daily schedule. The user
requests to add a 4 ship local mission requiring the following after the final
schedule:

Elements Required/Not Scheduled                      Points
1 Briefing System                                    1 point
1 IOS                                                1 points
4 Pilot Stations                                     4 points
Combat Environment                                   1 point
1 Debriefing System                                  1 point
Local network                                        1 point
Elements Required/Not scheduled                      9 points
Elements Required/Scheduled                          0

Availability is 9 points for 0 points required. 9 will be added to the available
elements (numerator) for the cumulative period. No points will be added to the
required (denominator) elements. For example, if the contractor points for the
cumulative period was 390/412 (94.6%), the new score would be 399/412
(96.8%).

C. Availability Accounting Applicable to All Orders

1. This section C is applicable to any order placed under this contract: Level A,
Level B, or Level C training.

2. The system or element will be counted as available if downtime is time lost due
to excusable delays as defined in FEDERAL ACQUISITION REGULATION
52.212-4(f).

3. Availability of 95% or better will be billed at 100% of the hourly rate. If
availability were to drop below 95%, the Government would pay a fraction of the
hourly rate. That fraction would be actual availability divided by 95%.




                                     19
Appendix D. Air Force Management Comments
            on the Finding and Audit Response
   This Appendix contains a summary of management comments on the finding and
   our audit response. See the Management Comments section of the report for a
   completed text of the Assistant Secretary of the Air Force (Acquisition)
   comments.

   Air Force Management Comments on Certification of F-16 MTC Simulation
   Capabilities. The Assistant Secretary of the Air Force (Acquisition) disagreed
   with the finding on the certification of F-16 MTC Simulation Capabilities and
   cited page 8 of the draft report that states, “the contract for F-16 MTC required
   the services to be integrated into the F-16 Ready Aircrew Program.” The
   Assistant Secretary stated that this is an error in fact because the Ready Aircrew
   Program accreditation was not a contractual requirement. The Assistant Secretary
   stated that the statement in the report regarding the Ready Aircrew Program
   accreditation appeared to be a misunderstanding of the Air Force’s simulation
   certification results and a Ready Aircrew Program letter dated December 5, 2005,
   and requested removal of all references to Ready Aircrew Program accreditation
   as a requirement. The Assistant Secretary provided the following additional
   clarification:
           a. The government conducts a simulator certification to validate training
   capability. Simulated events are evaluated and assigned a training value code. A
   training value code of 1, 2, or 3 indicates an event is certified for formal training
   (January 2005 simulator certification report, table 1). The simulator certification
   team may also further recommend training value code 1 events (fully replicate the
   aircraft) for accreditation in the Ready Aircrew Program as prescribed by Air
   Force Instruction 36-2248, paragraph 5.5.1. Air Combat Command/A3T is the
   authority for Ready Aircrew Program certification, and while they carefully
   consider simulator certification recommendations, they are not bound by them.
   The contractor has no control on Ready Aircrew Program accreditation of
   simulator capabilities.

           b. For some events, a training value code 1 rating requires simulation
   capabilities that are not available, not affordable, or unnecessary for the role or a
   particular MTC; for example, the Air Force intentionally did not state
   requirements for capabilities such as depth perception, 20/20 resolution, and
   simulated motion. This meant many of the events, and therefore mission, would
   never receive a training value code 1 rating. While the contractor must ensure all
   tasks from the Training Task List in the Statement of Work placed on contract are
   certified for formal training (training value code 1-3), they do not have to ensure
   all tasks receive a simulator certification recommendation for inclusion in the
   Ready Aircrew Program (training value code 1). Paragraph 3.0.6 of the Statement
   of Work requires the contractor to conduct assessments “to the level necessary to
   ensure that the F-16 MTC can be integrated into the F-16 Ready Aircrew Program
   and the respective training syllabus, as applicable.” The above is clarification to
   show why Ready Aircrew Program accreditation is not, and could not be, a



                                        20
contractual requirement. It is therefore not appropriate to have a finding that
assesses contractor performance based on Ready Aircrew Program.

        c. In assessing contractor performance, the simulator certification
demonstrated 89 percent of the applicable tasks could be incorporated into the
training syllabus (i.e. certified for formal training) as shown in the January 2005
simulator certification report, table 2.2. Although not a contractual requirement,
the following explains the issue of Ready Aircrew Program accreditation for the
F-16 MTC. Air Combat Command/A3T conducted an additional training analysis
and determined credit for Ready Aircrew Program requirements could be
assigned to the F-16 MTC. However, a decision was made in April 2005 to re-
compete the contract and period of performance for current services was set to
end June 2007. As a result, they did not mandate Ready Aircrew Program credit
in the MTC, with a concurrent reduction in live training requirements, because
they could not replace the live training if there was a break in service between
contracts.

Audit Response to Air Force Comments on Certification of F-16 MTC
Simulation Capabilities. We disagree that the reference to the Ready Aircrew
Program is an error in fact because the information in our report regarding the
Ready Aircrew Program was taken directly from contractual documents. The
Ready Aircrew Program is directly referenced in the contract Statement of Work
and Integrated Master Plan. Section 3.0.6 of the statement of work specifically
states that “The Training Capability Requirements Assessments shall be
conducted to the level necessary to ensure that the F-16 MTC can be integrated
into the Ready Aircrew Program and the respective training syllabus, as
applicable.”

This statement is also included in section 1.2 of the Integrated Master Plan.
Further, attachment 4, figure 1.3-1, event 3, of the Integrated Master Plan
specifically states that during the training capabilities requirements assessment
“the MTC team will also agree that training plans and objectives correlate with
the Air Force syllabus and the Ready Aircrew Program.” In regards to
certification of MTC services, section 3.9.6 of the Statement of Work states:
       The Government will conduct a simulator certification on all
       simulation service elements to validate the training capability of the
       training simulation service. Support of simulator certification shall
       include personnel to operate and maintain the simulation systems
       during the initial and annual simulator certification.

Furthermore, Air Force experts create simulator certification test plans and
develop mission training scenarios based on Ready Aircrew Program
requirements. The simulator certification is used to evaluate aircrew training
devices to determine if they provide credible training for specific flight events.

Payments for F-16 MTC simulation services began in June 2002 at Shaw AFB.
However, the initial simulator certification report was not issued until January
2005. The simulator certification report did not recommend any mission events
as credible to Ready Aircrew Program requirements. Specifically, the simulator
certification overall conclusion states:


                                        21
       While providing satisfactory support for normal and emergency
       procedures, instrument tasks, element coordination and air-to-ground
       procedural training, non-concurrency with MMC 3.3+ significantly
       restricts training effectiveness for mission qualification training and
       continuation training. Additionally, Two/Four-Ship Flight Lead
       Upgrade, Instructor Pilot Upgrade, Mission Commander Upgrade and
       Continuation Training are degraded due to errors in the visual
       environment and mission rehearsal training cannot be accomplished
       due to the lack of Distributed Mission Operations capability.

Air Force Comments on Effects on Mission Training. The Assistant Secretary
of the Air Force (Acquisition) disagreed with the finding on the effects on mission
training and cited Page 10 of the draft report which states that the MTC did not
have the capability to train 14 of the 16 missions in the Statement of Work. The
Assistant Secretary stated that at the time of the simulator certification, only 10 of
the 16 missions specified in the Statement of Work were applicable for training at
Shaw AFB and that the majority of tasks in these 10 missions were credited for
formal training. The Assistant Secretary requested that the report accurately
reflect the number of applicable missions and include an assessment of trainable
tasks. Additional details were provided on the importance of assessing trainable
tasks as well as entire missions.

       a. Paragraph 1.2 in the Statement of Work is a collective list of the 16
missions specified for F-16 Block 40/50 MTCs. Some missions are not
applicable to both block configurations (Shaw AFB has only Block 50 aircraft).
Additionally, each unit trains to their local designated operating capability
statement, which may not include all the missions for a given configuration. At
Shaw AFB at the time of the simulator certification, only 10 missions were
applicable. The 6 non-applicable missions are listed below:

                 1. Low Altitude Navigation & Targeting Infrared for Night -
applies to Block 40 configuration only (Performance Specification, paragraph
3.2.1.1)
                 2. Close Air Support - revising aircraft tactics at time of simulator
certification, therefore did not evaluate.
                 3. Killer Scout - not a contractual requirement; can obtain
capability through technology insertion (Statement of Work, paragraph 1.1.2.1)
                 4. Combat Search and Rescue - not a contractual requirement; can
obtain capability through technology insertion (Statement of Work, paragraph
1.1.2.1)
                 5. Night Vision Goggles - capability added to contract but delivery
date was several months after the simulator certification.
                 6. Nuclear Operations - Block 50 mission but not performed by
Shaw AFB unit

        b. Paragraph 3.2.2 of the Performance Specification states that the MTC
shall “provide the capability to train F-16 Training Task List tasks in
accomplishment of the F-16 missions and operations listed in paragraph 3.2.1.”
Assessing the number of trainable tasks, therefore, is a more accurate reflection of
the F-16 MTC’s capabilities and the contractor’s technical performance than
assessing trainable missions on an all-or-nothing basis.


                                         22
        c. As noted earlier, the simulator certification conducted at Shaw AFB in
October 2004 evaluated 741 applicable training tasks and certified 89 percent for
formal training (i.e. they received a training value code rating of 1, 2, or 3).
Deficiencies of the MTC at the time prevented it from simulation 6 percent of the
tasks. An additional 4 percent were for the Night Vision Goggle mission, which
wasn’t yet contractually required, as noted above. [Note: Since October 2004, the
contractor resolved deficiencies and added Night Vision Goggle capability; these
tasks are ready to be certified at the next simulator certification.] The remaining
1 percent were either inconsistent with unit doctrine or seldom accomplished by
unit pilots. No evaluated tasks were rated uncertified for formal training (training
value code 4). These results found in paragraph 2.2.1 of the January 2005
simulator certification report.

        d. The simulator certification also included pilot evaluations. Thirty-two
pilots evaluated the MTC’s “capability…to provide advance mission training
(weapons employment, mission rehearsal, tactics, defensive reactions, etc.)” Five
of them rated the MTC satisfactory, 23 rated it excellent, and four rated it
outstanding (January 2005 simulator certification report, supplement B).

       e. From very early in its fielding, even prior to the simulator certification,
the F-16 MTC provided a great deal of high-quality training. A comment from an
Operation Iraqi Freedom F-16 pilot on 21 March 2003 illustrates this well. “I was
‘downtown’ at the start of tonight’s activities…The cool part is that the location
of my flight and the tactics employed were exactly like we were practicing in the
MTC at Shaw AFB before we left . It was pretty cool to see the terrain and
scenario as practiced. Talk about mission rehearsal.” Today, it provides even
more high-quality training to our pilots.

Audit Response to Air Force Comments on Effects on Mission Training. We
acknowledge that the Air Force has received some additional training benefits
with the F-16 MTC. However, the Air Force is not receiving the services for
which it contracted. The Air Force states that a majority of the tasks in the 10
missions were certified for formal training. However, each mission requires
subsets of training tasks performed simultaneously. During the audit, we
interviewed the Test Director for the 29th Training Systems Squadron who was
responsible for the only official simulator certification of the F-16 MTC. The
simulator certification Test Director stated that the inability of a small number of
tasks prevents mission training capability. Therefore, while pilots may obtain
some benefit from the ability to train specific tasks, the pilots are unable to obtain
full mission training.

The Air Force wrote the contract for F-16 MTC in such vague terminology that it
makes it extremely difficult to objectively evaluate the adequacy of simulation
services provided by the contractor. The Air Force cites training value codes and
percentages of applicable tasks that were certified for formal training but none of
these terms are discussed or defined anywhere in the contractual documents. In
contrast, the statement of work does list the missions that were to be trained in the
F-16 MTC. Specifically, section 1.2 of the Statement of Work states:
       The Contractor shall confirm the MTC training task list with Air
       Combat Command. The Contractor shall define the core typical



                                         23
       mission training profiles and scenarios from the training descriptions
       provided. Training activities shall include Mission Qualification
       Training, Two/Four-Ship Flight Lead Upgrade, Instructor Pilot
       Upgrade, Mission Commander Upgrade, and Continuation Training.
       Preliminary objectives shall be derived for future Air Expeditionary
       Force Preparation and Mission Rehearsal. The confirmed missions to
       be trained in the MTC shall include:

       a. Defense Counter Air
       b. Offensive Counter Air
       c. Suppression of Enemy Air Defenses
       d. Low Altitude Navigational and Targeting Infrared for Night
       e. Medium Altitude Operations
       f. Tactics
       g. Air Interdiction
       h. Weather Approach Procedures
       i. Emergency Procedures
       j. Basic Fighter Maneuvers
       k. Air Combat Maneuvers
       l. Close Air Support
       m. Killer Scout
       n. Combat Search and Rescue
       o. Night Vision Goggle Operations
       p. Nuclear Operations

The Air Force states that at the time of the simulator certification only 10 of the
16 mission listed in the statement of work were applicable for training at Shaw
AFB. Our finding addresses the fact that the contract listed 16 specific missions
to be trained in the MTC and that only 2 of the missions were certified for Ready
Aircrew Program training at the time of our review. If there are missions that
were not applicable during the simulator certification at Shaw AFB we would
have expected to see them addressed during a simulator certification at the
applicable MTC site. The Air Force response fails to acknowledge that the
contract required a simulator certification to be performed as each MTC site was
activated, and annually thereafter. Simulator certifications were not conducted as
sites were activated and none of the four operational sites have successfully
completed an annual simulator certification as required by the contract. At the
time of the audit, the Air Force had four active MTC sites, yet only one simulator
certification has been completed. This was the initial F-16 MTC simulator
certification that was conducted at Shaw AFB in October 2004 and the official
report was not issued until January 2005 (Note that payments for simulator
services began in June 2002). The missions that were not applicable to
Shaw AFB should have been tested during a simulator certification at the
applicable site. However, these simulator certifications were never accomplished.

The Air Force response also makes reference to pilot evaluations included in the
simulator certification report. The pilot survey form is a subjective evaluation,
not an objective overall evaluation of the simulator and its capability to meet
contract requirements. The results of pilot surveys were not mentioned anywhere
in the contractual documents as a measure of contractor performance.
Additionally, in response to another question on the same F-16 MTC survey eight
of thirty-one pilots rated the MTC as unsatisfactory or marginal because it was


                                         24
unable to start a scheduled mission on time and complete the mission without
disruptions such as computer crashes or reboots. The January 2005 simulator
certification report revealed that observed mission reliability was only 72 percent.
In addition, the simulator certification Test Director informed us that poor system
stability continues to be a problem and has impacted the successful completion of
simulator certifications at other operational MTC sites.




                                     25
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Combat Command

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Security Agency
Director, Defense Systems Management College
Commander, Defense Contract Management Dayton Ohio




                                          26
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Assistant Secretary of the Air Force
(Acquisition) Comments




                       29
30
31
32
33
34
Defense Contract Management Agency Dayton
Comments




                    35
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Amy J. Frontz
Anthony C. Hans
James C. Darrough
Brian M. Stumpo
Catherine Bird
